                 TIRNO-95-D-00061, Audit of Final Vouchers,
                Delivery Order Numbers 0011, 3197, and 4669

                                February 2004

                     Reference Number: 2004-1C-049




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          February 10, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-95-D-00061, Audit of Final Vouchers, Delivery Order
                              Numbers 0011, 3197, and 4669 (Audit #20041C0218)


       The Defense Contract Audit Agency (DCAA) examined three final vouchers issued
       under the prime contract number TIRNO-95-D-00061. The purpose of the examination
       was to determine the allowable cost and fee under the contract.
       The DCAA opined that the three final vouchers issued under the contract are
       acceptable for processing. The DCAA indicated claimed costs represent costs which
       are considered allowable under the contract and are therefore reimbursable.
       Additionally, the DCAA stated that the contractor’s accounting and billing systems are
       generally considered adequate to ensure final vouchers are based on allowable cost
       and fee data.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
